George Grob /S/

Deputy Inspector General 

  for Evaluation and Inspections

Three Year Performance Data for the HIPAA-Funded Projects (OEI-02-97-00528)

Edwin Walker, Director
Office of Program Operations and Development
Administration on Aging


At the request of the Administration on Aging (AoA), we have continued to collect
performance data from the 18 Health Insurance Portability and Accountability Act (HIPAA)­
funded projects. The attachment presents cumulative performance data for the entire 3 years
of the projects. Please note that these data are self-reported and we have not verified their
accuracy.

Virtually all of the HIPAA-funded projects have completed their 3-year grant period. The
projects as a whole have accomplished the following. They have trained a total of 25,888
trainers who have gone on to educate a total of 87,221 beneficiaries, family members,
caregivers, and others in their sessions. They have also educated 19,942 aging network staff
and volunteers about health care fraud, waste, and abuse. They reached an additional 744,383
people through forums and other public information presentations. As a result of these efforts,
the projects reported receiving 15,127 complaints, 6 percent of which resulted in some action.

In their final reporting period, only three projects provided documentation of actual
recoupment totaling $12,928. The New York project identified another $48 million to be
recouped primarily in Medicaid funds. This was due to Medicaid/Medicare computer matches
that identified double billings. Further, it should be noted that potentially substantial savings
may arise from these projects due to a sentinel effect whereby fraud and error are reduced in
light of Medicare beneficiaries’ scrutiny of their bills. Savings will also result from reports of
fraud and error made to the Medicare contractors and to the OIG fraud hotline. Tracking of
these effects, however, has proved difficult.

If you have any questions, please call me at 202-619-0480 or have your staff call Jack Molnar
at 212-264-1998.

Attachment
                                                                                                                                                                                                      Attachment

                                                           Three Year Outcomes for the HIPAA-Funded Projects

                Activity                  AZ       CA       CO        FL        GA       IL        LA    MA       MO       NJ       NY         OH       OR       PA       TN       TX        VA       WA     TOTAL


A. Trainers
# of training sessions conducted for         99      58          27        36    39           23    47    37       10           0        488    16       13        12       12      426        19       82      1,444
network agency staff, volunteers, and
others

# of network agency staff, including       1,370   1,186         91    570 1,329          787      337   574       70           1     4,972     916     564       417      212     4,159      404      447     18,406
volunteers, trained

# of other staff and volunteers trained     591     210       212          42        0    100      479        0        0        0     4,057     10      400           0    121     1,260          0    DK       7,482

Total trained                              1,961   1,396      303      612 1,329          887      816   574       70           1     9,029     926     964       417      333     5,419      404      447     25,888

B. Public information
# of media events conducted                  17     138          2     336       90           46    18        9        5        0        217        1    14           8        5    835        83      119      1,943

# of forums and other public                148     151          27    327           7        25    36        9    24        24          574    72           2     18       95      800       364      482      3,185
information presentations conducted

# of persons attending these forums        8,455   1,053 133,000      9,918     731      1,101 1,301 2,420 6,189           2,710    237,997 40,230      184       588     5,681 210,496 45,012 37,317         744,383
and other public information
presentations

C. Activities of trainers
# of trainers currently promoting           115      27          91    130       10           85   197   574           3        1     2,352     30      338       417      284      110       259      DK       5,023
awareness and reporting of health
care fraud and abuse

# of education and training sessions        165      28       329          6     11           15    71    80       49           0         0     DK      506           8     20          44        8    DK       1,340
conducted by trainers for network
agency or for other staff and
volunteers

# of network agency and other staff        6,969    586       720          32   340       670      892 2,780 2,510              0         0     DK 1,265          600     1,934     569        75      DK      19,942
and volunteers attending these
sessions

# of sessions conducted by trainers         156     716          72    178       18       127      359   125           0        0     1,468     DK 1,175           67       21      112       142      DK       4,736
for beneficiaries, family members,
care givers, and others

# of beneficiaries, family members,       13,098   1,549    2,902 22,307        920      5,023 3,105 2,350             0        0    18,672     DK 1,762         2,400     842     4,571     7,720     DK      87,221
care givers, and others attending
these sessions

Please note the following:
--New York has always been a Senior Medicare Patrol Project grantee.

--The projects in AZ, OR, and VA are now also Senior Medicare Patrol Project grantees.

--The projects in LA, NJ, and OR were incorporated at a later date and are reporting 30-month data.

                                                                                                                                                                                              Attachment

                                                          Three Year Outcomes for the HIPAA-Funded Projects


              Activity                   AZ       CA       CO       FL        GA     IL        LA       MA       MO    NJ        NY         OH       OR       PA    TN       TX        VA     WA       TOTAL


D. Health care fraud and
abuse complaint receipt
and referral activity
# of complaints received attributable      359    8,976         0   1,480      36         15    33 3,154          DK     39           180    32       16       DK        0      466     268     73       15,127
to the project

# of complaints referred for follow-up      56    5,471         0        23    24         15    19           2    DK     15           55         1    15       DK        0      117     165     13        5,991

# of complaints that resulted in some         8     787         0      DK      DK         4     13       DK       DK         7        37     DK           9    DK        0        45    DK         3       913
action

Medicare $ recouped attributable to           0     DK          0      DK      DK   7,551 1,501          DK       DK 3,563   *   3,008 *     DK       DK       DK        0   6,357 *    DK    1,400      23,380
the project

Other $ recouped attributable to the          0     DK          0      DK      DK         0         0    DK       DK     39 47,901,200       DK       DK       DK        0      DK      DK 71,036 47,972,275
project

Total $ recouped attributable to the          0     DK          0      DK      DK   7,551 1,501          DK       DK   3,602 47,904,208      DK       DK       DK        0    6,357     DK 72,436 47,995,655
project


* Documentation of actual recoupments provided




Please note the following:
--New York has always been a Senior Medicare Patrol Project grantee.

--The projects in AZ, OR, and VA are now also Senior Medicare Patrol Project grantees.

--The projects in LA, NJ, and OR were incorporated at a later date and are reporting 30-month data.

